U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 PUBLIC
                RELEASE


           BUREAU OF THE CENSUS
      Agreed-Upon Procedures and Results
              Assessment of Federal Audit
                  Clearinghouse Database
           Fiscal Year 1998 Audit Reports
       Final Audit Report No. ATL-12556-0-0001/July 2000




                  Office of Audits, Atlanta Regional Office
U.S. Department of Commerce                                                                        Final Report ATL-12556-0-0001
Office of Inspector General                                                                                             July 2000

                                                   TABLE OF CONTENTS

                                                                                                                                     Page

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

AGREED-UPON PROCEDURES AND RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          I.         Completeness of the Reporting Package . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          II.        Accuracy of Data Elements in the Clearinghouse Database . . . . . . . . . . . . . . . . 6

          III.       Completeness of the Audit Findings in the Database . . . . . . . . . . . . . . . . . . . . 14

          IV.        Census Response and OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

APPENDIXES

          I.         Sampling Methodology

          II.        Sampling Projections

          III.       Distribution List for Specified Users

          IV.        Glossary

          V.         Census Bureau’s Response to Draft Report
U.S. Department of Commerce                                            Final Report ATL-12556-0-0001
Office of Inspector General                                                                 July 2000

                                   EXECUTIVE SUMMARY

The Office of Management and Budget (OMB) requested that the Department of Commerce,
Office of Inspector General, perform an agreed-upon procedures engagement to assess the
integrity of the Federal Audit Clearinghouse (Clearinghouse) Database. The Congress has given
OMB statutory authority for implementing the Single Audit Act Amendments of 1996. OMB
implemented the Amendments through the issuance of its Circular A-133, Audits of States,
Local Governments and Non-Profit Organizations. In the circular, OMB authorized the Bureau
of the Census to operate the Clearinghouse, which serves as a repository for Single Audit reports
and an audit processing service and data dissemination system for the entire Federal grant
community.

Our objective in this engagement was to perform specified agreed-upon procedures to assist
OMB, the Census Bureau, and other specified users (listed in Appendix III) in assessing the
accuracy of the information in the Clearinghouse Database for fiscal year 1998 audit reports. The
results are described in the Agreed-Upon Procedures and Results section of this report. These
procedures were performed in accordance with standards established by the American Institute
of Certified Public Accountants and Government Auditing Standards, issued by the Comptroller
General of the United States. The sufficiency of the procedures is solely the responsibility of the
specified users of this report.

In summary, we performed agreed-upon procedures to:

l      Verify the completeness of the reporting packages.

l      Compare the information in the Clearinghouse Database with the information provided to
       the Clearinghouse on the Data Collection Form for Reporting on Audits of States, Local
       Governments and Non-Profit Organizations (Data Collection Form) and in the reporting
       package.

l      Verify that all audit findings reflected in the Single Audit reports were also included in the
       Clearinghouse Database.

We used a two-stage attribute sampling plan developed by the Department of Labor, Office of
Inspector General, to achieve a sample that was representative of the universe of 1998 Single
Audit reports and the Catalog of Federal Domestic Assistance (CFDA) program entries in the
Clearinghouse Database. The sampling methodology used in the selection of 150 reports, known
as the stage I sample, and the selection of 2,559 individual CFDA program entries, known as the
stage II sample, is described in Appendix I.




                                                 i
U.S. Department of Commerce                                              Final Report ATL-12556-0-0001
Office of Inspector General                                                                   July 2000

Specifically, the results of the agreed-upon procedures are summarized as follows:

l      We reviewed the 150 audit reports selected in the stage I sample to test the completeness
       of the reporting package. In two audit reports, we found the auditor did not include a
       required element. The missing element in each instance was the Auditor’s Opinion on the
       Supplementary Schedule of Expenditures of Federal Awards. The details of the errors
       can be found in Table 1 of the Agreed-Upon Procedures and Results section of this
       report.

l      We compared the information in the Database with the information provided on the Data
       Collection Form and in the reporting package for the 150 Single Audit reports and the
       2,559 CFDA program entries selected as part of our sample. The sample sizes for the
       two-stage attribute sampling plan resulted in the testing of 22,563 data elements in which
       we found 370 errors. Of the 370 errors, 126 were attributable to the Clearinghouse, and
       244 to the auditors and auditees. Of the 126 Clearinghouse errors, we found 41 made by
       the data entry operators and 85 that resulted from programming problems in transferring
       information from the Clearinghouse Database to the Clearinghouse website. The 244
       errors attributable to the auditors and auditees were due to incorrect or incomplete Data
       Collection Forms or missing data elements in the preparation of the Auditor’s Summary.
       The calculation of the attributes (data elements) tested and the details of the errors can be
       found in Tables 2 through 6 of the Agreed-Upon Procedures and Results section of this
       report.

l      We verified that all audit findings reflected in the 150 sampled Single Audit reports
       reviewed were included in the Clearinghouse Database. We found four reports that had
       findings omitted from the Database. We classified these reports as having critical errors.
       The details of the errors can be found in Table 7 of the Agreed-Upon Procedures and
       Results section of this report.

Projections were made for the data elements and reports where errors were found, and a table
detailing the error projections is included as Appendix II. All statistical projections fell within the
tolerable error rate established by our statistical sampling plan with the exception of the following
three areas: (1) designation of cognizant or oversight agency for audit,
(2) identification of Federal agencies receiving the reporting package, and (3) accurate completion
of several data elements on the Auditor’s Summary.

In response to the draft report, Census officials fully agreed with the results of the Agreed-Upon
Procedures engagement. The Bureau explained that the Clearinghouse developed the audit report
database with the close guidance of OMB and the federal agency sponsors. Given the
complexities of the electronic system and related operating procedures involved in this effort, the
Bureau was pleased to hear that the overall accuracy of its work was confirmed by our review,
and stated that corrections are in progress for the isolated keying errors and program problems
reported.

                                                  ii
U.S. Department of Commerce                                           Final Report ATL-12556-0-0001
Office of Inspector General                                                                July 2000

                                       INTRODUCTION

The Office of Management and Budget (OMB) has statutory authority for implementing the
Single Audit Act Amendments of 1996. OMB implemented the Amendments through the
issuance of its Circular A-133, Audits of States, Local Governments and Non-Profit
Organizations which requires entities receiving $300,000 or more in federal funds to have an
annual Single Audit performed. The Circular authorizes a Federal clearinghouse to receive these
audit reports. OMB chose the Bureau of the Census to operate the Federal Audit Clearinghouse
(Clearinghouse). Our objective was to perform specified agreed-upon procedures to assist OMB,
the Census Bureau, and other specified users (listed in Appendix III) in assessing the accuracy of
the information in the Clearinghouse Database for fiscal year 1998 audit reports.

The Clearinghouse collects completed Single Audit reporting packages from auditees that are
required to have Single Audits performed under Circular A-133. Auditees must submit one
complete reporting package for the Clearinghouse archives, additional copies for the
Clearinghouse to distribute to Federal awarding agencies whose direct Federal awards are
affected by findings in the auditor’s report, and a completed Data Collection Form for
Reporting on Audits of States, Local Governments and Non-Profit Organizations (Data
Collection Form). Once the Clearinghouse receives an auditee’s reporting package and Data
Collection Form, it is responsible for distributing the reporting package to the Federal awarding
agencies identified on the Data Collection Form.

The Clearinghouse serves as a repository for Single Audit reports and an audit processing service
and data dissemination system for the entire Federal grant community. Using the information
from the Data Collection Form, the Clearinghouse is responsible for incorporating information
about each auditee, its Federal awards, and audit results into a government-wide database. The
Clearinghouse Database’s coverage begins with audit information for fiscal years ending on or
after June 30, 1997, and can be downloaded from or viewed directly on the Clearinghouse’s
website at http://harvester.census.gov/sac.

OFFICE OF INSPECTOR GENERAL’S REPORT
ON APPLYING AGREED-UPON PROCEDURES

We have performed the procedures described in the Agreed-Upon Procedures and Results
section of this report at the request of OMB. These procedures were agreed to by OMB, the
Census Bureau, and other specified agencies (listed in Appendix III). We performed these
procedures solely to assist the specified users with assessing the accuracy and completeness of
the auditee’s fiscal year 1998 information in the Clearinghouse’s Database as compared to the
Data Collection Form and the reporting packages submitted by Federal award recipients as
required by OMB Circular A-133. This engagement to apply agreed-upon procedures was
performed in accordance with standards established by the American Institute of Certified Public
Accountants and Government Auditing Standards, issued by the Comptroller General of the
United States.
U.S. Department of Commerce                                             Final Report ATL-12556-0-0001
Office of Inspector General                                                                  July 2000

The sufficiency of the procedures is solely the responsibility of the specified users of this report.
Consequently, we make no representation regarding the sufficiency of the procedures therein,
either for the purpose for which this report has been requested or for any other purpose. The
procedures and results of these procedures are described in the Agreed-Upon Procedures and
Results section of this report.

We were not engaged to, and did not, perform an audit, the objective of which would be the
expression of an opinion on the completeness and accuracy of the information in the
Clearinghouse Database as compared to the submitted reporting packages. Accordingly, we do
not express such an opinion. Had we performed additional procedures, other matters might have
come to our attention that would have been reported.

This report is intended solely for the information and use of OMB, the Census Bureau, and the
Federal agencies listed in Appendix III and is not intended to be used by those who have not
agreed to the procedures and taken responsibility for the sufficiency of the procedures.

We conducted the engagement’s fieldwork at the Federal Audit Clearinghouse in Jeffersonville,
Indiana, from December 1999 through January 2000. The sample selected for the engagement
was taken from the 18,992 audit reports included in the Clearinghouse Database as of October 26,
1999, with the auditee’s financial statement period ended during calendar year 1998.

In June 2000, we issued a draft report to Census for its review and comment. We have
summarized the Bureau’s response in the Agreed-Upon Procedures and Results section of this
report, and have included the complete response as Appendix V.




                                                  2
U.S. Department of Commerce                                                        Final Report ATL-12556-0-0001
Office of Inspector General                                                                             July 2000

                          AGREED-UPON PROCEDURES AND RESULTS

Our assessment of the accuracy and completeness of the information included in the
Clearinghouse Database involved performing specific procedures in the following areas:
(1) verifying the completeness of the reporting package, (2) comparing the information in the
Clearinghouse Database with the information provided to the Clearinghouse on the Data
Collection Form for Reporting on Audits of States, Local Governments and Non-Profit
Organizations and in the Single Audit reporting package, and (3) verifying that all audit findings
reflected in the Single Audit reports were also included in the Clearinghouse Database. These
agreed-upon procedures and results of the procedures are discussed in sections I through III of
this report.

We utilized a two-stage attribute sampling plan developed by the Department of Labor, Office of
Inspector General, to achieve a sample that was representative of the individual Catalog of
Federal Domestic Assistance (CFDA) program entries in the Database; the sampling plan is
described in Appendix I. The stage I sample consisted of 150 individual Single Audit reports
entered in the Clearinghouse Database as of October 26, 1999, with a financial statement period
ended during calendar year 1998. The stage II sample consisted of 2,559 individual CFDA
program entries associated with the 150 Single Audit reports selected in the stage I sample.

For stage I, the sampling plan utilized a stratified random attribute sample. The strata and sample
sizes per stratum were as follows:

                                              Number of          Direct Federal
                                               Single          Awards and Pass-                 Federal Awards
                                                Audit            Through Funds     Sample       Expended in the
 Stratum               Range                   Reports             Expended         Size           Sample
    1        $   300,000 $ 24,999,999            18,462         $ 43,755,959,245      100       $    365,865,804
    2         25,000,000 499,999,999                479           40,576,648,235        30         2,810,560,904
    3        500,000,000       ~                      51         261,230,895,285        20       126,628,161,225
 Totals                                          18,992        $345,563,502,7651      150       $129,804,587,933




        1
          The expenditure amount claimed in the Database includes an undeterminable amount of double counting
because the Data Collection Form does not capture whether expenditures are from funds received directly from the
Federal government or indirectly from a pass-through entity. For example, a State may receive a $1 million grant and
pass-through $500,000 of this grant to local governments. In this case, the database would show $1.5 million in
expenditures; $1 million for the State and $500,000 for the local governments.

                                                           3
U.S. Department of Commerce                                               Final Report ATL-12556-0-0001
Office of Inspector General                                                                    July 2000
For stage II, the sampling plan was designed to test up to 50 CFDA program entries for each
Single Audit report selected in stage I.

                     CFDA Program Entries in       CFDA Program Entries in      CFDA Program Entries
     Stratum              Population                  Stage I Sample              in Stage II Sample
          1                   147,289                         910                          910
          2                    29,896                       1,030                          790
          3                    24,483                      10,950                          859
 Totals                       201,668                      12,890                        2,559

The errors identified when applying the agreed-upon procedures to the two-stage sample can be
found in Tables 1 through 7 of this report. Projections were made for the data elements where
errors were found, and a table detailing the error projections is included as Appendix II. All
statistical projections fell within the tolerable error rate established by our statistical sampling plan
with the exception of the following three areas: (1) designation of cognizant or oversight agency
for audit, (2) identification of Federal agencies receiving the reporting package, and
(3) accurate completion of several data elements on the Auditor’s Summary.




                                                   4
U.S. Department of Commerce                                                          Final Report ATL-12556-0-0001
Office of Inspector General                                                                               July 2000

I.        COMPLETENESS OF THE REPORTING PACKAGE

Overview of Results

We reviewed the 150 audit reports selected in the stage I sample to test the completeness of the
reporting package. In two audit reports, we found the auditor did not include a required element.
The missing element in each instance was the Auditor’s Opinion on the Supplementary Schedule
of Expenditures of Federal Awards. The calculation of the attributes (data elements) tested, and
the details of the errors can be found in Table 1 below. Projections were made for the data
elements where errors were found, and a table detailing the error projections is included as
Appendix II.

Procedures and Results

Table 1
 Agreed-Upon Procedures Performed                                     Results of Procedures

 Verify that each reporting package selected as part of the stage I   We found 2 errors out of a possible 1,200
 sample includes the following elements.                              attributes tested for Table 1. We calculated the
 1.       Financial Statements.                                       attributes tested by multiplying the report’s
 2.       Schedule of Expenditures of Federal Awards (SEFA).          elements by the sample of 150
 3.       Independent Auditor’s Opinion on Financial                  (8 * 150 = 1,200).
          Statements and Supplementary Schedule of
          Expenditures of Federal Awards (Auditor’s Report            Two reports of the 150 single audit reports
          One).                                                       reviewed had a missing element. The missing
 4.       Report on Compliance and on Internal Controls over          element for each report was the auditor’s
          Financial Reporting Based on an Audit of Financial          opinion on the SEFA.
          Statements in Accordance with Government Auditing
          Standards (Auditor’s Report Two).
 5.       Report on Compliance with Requirements Applicable
          to Each Major Program and on Internal Controls over
          Compliance in Accordance with OMB Circular
          A-133 (Auditor’s Report Three).
 6.       Schedule of Findings and Questioned Costs.
 7.       Corrective Action Plan (CAP) for current year audit
          findings.
 8.       Summary Schedule of Prior Audit Findings (Prior
          Year Findings) may be included although they are not
          always required.




                                                           5
U.S. Department of Commerce                                          Final Report ATL-12556-0-0001
Office of Inspector General                                                               July 2000


II.    ACCURACY OF DATA ELEMENTS IN THE CLEARINGHOUSE DATABASE

Overview of Results

We compared the information in the Database with the information provided on the Data
Collection Form and in the reporting package for the 150 Single Audit reports and the 2,559
CFDA program entries selected as part of our sample. The sample sizes established in the
sampling plan resulted in the testing of 22,563 data elements in which we found 370 errors. Of
the 370 errors, 126 were attributable to the Clearinghouse, and 244 to the auditors and auditees.
Of the 126 Clearinghouse errors, we found 41 made by the data entry operators and 85 resulted
from programming problems in transferring information from the Clearinghouse Database to the
Clearinghouse website. The 244 errors attributable to the auditors and auditees were due to
incorrect or incomplete Data Collection Forms or missing data elements in the preparation of the
Auditor’s Summary. The calculation of the attributes (data elements) tested and details of the
errors can be found in Tables 2 through 6 of the Agreed-Upon Procedures and Results section of
this report.

Projections were made for the data elements where errors were found and a table detailing the
error projections is included as Appendix II.

Procedures and Results

We have defined the Clearinghouse database elements by reference to the applicable item of Data
Collection Form. Tables 2 through 6 report on the agreed-upon procedures performed to test the
accuracy of the data elements in the Clearinghouse Database.

For each element listed in Tables 2 through 6, we compared the information in the Clearinghouse
Database as retrieved from the Clearinghouse website with the information found on the Data
Collection Form and in the reporting package. For dollar amount data elements, we did not
consider a difference of $100 or less to be an error. We determined whether errors noted were
the result of mistakes made by the Clearinghouse or by the auditor/auditee in completing the
Data Collection Form or other parts of the reporting package.




                                                6
U.S. Department of Commerce                                                       Final Report ATL-12556-0-0001
Office of Inspector General                                                                            July 2000

Table 2
                        DATA COLLECTION FORM Part I - General Information
 Agreed-Upon Procedures Performed                                Results of Procedures.

 Item 1      Fiscal Year Ending Date                             We found a total of 31 errors in the 1,950
             Compared with Auditor’s Report One.                 attributes tested for Table 2. We calculated the
 Item 2      Type of Circular A-133 Audit                        attributes tested by multiplying the items listed
             Compared with Auditor’s Report Three.               in this table by the sample of 150
 Item 3      Audit Period Covered                                (13 * 150 = 1,950).
             Compared with Auditor’s Report One.
 Item 5(a)   Auditee EIN                                         Item 3
             Compared with Data Collection Form.                 We found 3 errors in the website’s display of the
 Item 5(b)   Multiple EINs                                       audit period. While the audit period appeared in
             Compared with Data Collection Form.                 the Clearinghouse Database correctly, it was
 Item 6(a)   Auditee Name                                        blank on the website’s view screen. This
             Compared with Data Collection Form.                 programming problem has been corrected.
 Item 6(b)   Auditee Address
             Compared with Data Collection Form.                 Items 6 and 7
 Item 6(g)   Auditee Signature                                   We found that the Clearinghouse made 9 data
             Verified completeness on Data Collection            entry errors involving the auditee’s and auditor’s
             Form.                                               name and address. These data entry errors
 Item 7(a)   Auditor Name                                        included misspelled names and incorrect and
             Compared with Data Collection Form.                 incomplete addresses.
 Item 7(b)   Auditor Address
             Compared with Data Collection Form.
             Auditor Signature
 Item 7(g)
             Verified completeness on Data Collection
             Form.                                               Item 8
             Federal Cognizant or Oversight Agency for           We found 18 errors in Item 8. Of these 18
 Item 8
             Audit                                               errors, 17 were made by the auditee in
             Compared with Data Collection Form. We              determining whether a Federal agency was
             considered the following errors: (1) If the Part    cognizant or oversight and 1 typographical error
             III, Item 6c total was $25 million or less,         was made by the Clearinghouse. In 14 instances,
             cognizant was an error, and (2) If Part III, Item   cognizant was entered into the Database when
             6c total was more than $25 million then             oversight should have been entered; and, in 4
             oversight was an error.                             instances, oversight was entered into the
                                                                 Database when cognizant should have been
                                                                 entered.

                                                                 Item 9
 Item 9      Name of Federal Cognizant or Oversight              We found 1 error in Item 9. The Clearinghouse
             Agency for Audit                                    did not correctly enter the Federal cognizant
             Compared with Data Collection Form.                 agency as marked on the Data Collection Form.




                                                         7
U.S. Department of Commerce                                                      Final Report ATL-12556-0-0001
Office of Inspector General                                                                           July 2000


Table 3
                     DATA COLLECTION FORM Part II- Financial Statements
 Agreed-Upon Procedures Performed                        Results of Procedures

                                                         We found a total of 39 errors in the 1,350 attributes
                                                         tested for Table 3. We calculated the attributes tested
                                                         by multiplying the items listed in this table by the
                                                         sample of 150 (9 * 150 = 1,350). All 39 errors were
                                                         attributable to the auditors.

 Item 1     Type of Audit Report                         Item 1
            Compared with                                We found 13 errors in Item 1. Item 1(a) had 2 errors.
            (a) Auditor’s Report One, and                These 2 errors were due to a mismatch between the
            (b) the Summary of Auditor’s Results         type of audit report recorded on the Data Collection
            included in the Schedule of Findings &       Form and the type of report included in Auditor’s
            Questioned Costs (Auditor’s Summary).        Report One. Item 1(b) had 11 errors due to a
                                                         mismatch between the type of audit reports recorded
                                                         on the Data Collection Form and the type of audit
                                                         report disclosed on the Auditor’s Summary.


 Item 2     Going Concern Explanatory Paragraph
            Compared with Auditor’s Report One.

 Item 3     Reportable Conditions                        Item 3
            Compared with                                We found 12 errors in Item 3. Item 3(a) had 4 errors.
            (a) Auditor’s Report Two, and                Of the 4 errors, 3 were due to a mismatch between
            (b) Auditor’s Summary.                       reportable conditions included on the Data
                                                         Collection Form but not included in Auditor’s
                                                         Report Two. The other error was due to the
                                                         inclusion of reportable conditions in Auditor’s
                                                         Report Two but not reported on the Data Collection
                                                         Form. Item 3(b) had 8 errors due to a mismatch
                                                         between the reportable condition information
                                                         reported on the Data Collection Form and the
                                                         information included on the Auditor’s Summary.




                                                     8
U.S. Department of Commerce                                              Final Report ATL-12556-0-0001
Office of Inspector General                                                                   July 2000

Table 3 (cont.)
                    DATA COLLECTION FORM Part II- Financial Statements (cont.)
 Agreed-Upon Procedures Performed                   Results of Procedures

 Item 4       Material Weaknesses                   Item 4
              Compared with                         We found 2 errors in Item 4(b). These 2 errors were
              (a) Auditor’s Report Two, and         due to a mismatch between the material weakness
              (b) Auditor’s Summary.                information reported on the Data Collection Form and
                                                    the material weakness information reported on the
                                                    Auditor’s Summary.

 Item 5       Material Non-Compliance               Item 5
              Compared with                         We found 12 errors in Item 5. Item 5(a) had 4 errors.
              (a) Auditor’s Report Two, and         Two errors were due to the auditor indicating a non-
              (b) Auditor’s Summary.                compliance item on Data Collection Form but not
                                                    including non-compliance disclosures in Auditor’s
                                                    Report Two. Two other errors were due to non-
                                                    compliance reported on Auditor’s Report Two but not
                                                    included on Data Collection Form. Item 5(b) had 8
                                                    errors due to a mismatch between the material non-
                                                    compliance information reported on the Data
                                                    Collection Form and the material non-compliance
                                                    information reported on the Auditor’s Summary.




                                                9
U.S. Department of Commerce                                                    Final Report ATL-12556-0-0001
Office of Inspector General                                                                         July 2000

Table 4
                        DATA COLLECTION FORM Part III- Federal Programs
 Agreed -Upon Procedures Performed                  Results of Procedures

                                                    We found a total of 131 errors in the 1,050 attributes
                                                    tested for Table 4. We calculated the attributes tested by
                                                    multiplying the items listed in this table by the sample of
                                                    150 (7 * 150 = 1,050).

 Item 1      Type of Report on Major Program        Item 1
             Compliance                             We found 7 errors in Item 1. Item 1(a) had 1 error due to
             Compared with the                      a Clearinghouse programming problem in transferring
             (a) Auditor’s Report Three, and        data from the Database to the website. Item 1(b) had 6
             (b) Auditor’s Summary.                 errors. We found 5 errors, attributable to the auditors,
                                                    due to a mismatch between the type of report on major
                                                    programs included on the Data Collection Form and the
                                                    type of report on major programs included on the
                                                    Auditor’s Summary, and 1 error due to a Clearinghouse
                                                    programming problem in transferring data from the
                                                    Database to the website.

 Item 2      Dollar Threshold to Distinguish Type   Item 2
             A and Type B Programs                  We found 9 errors in Item 2. Seven of these errors were
             Compared with the Auditor’s            attributable to the auditor. Of the 7 errors, we found 6
             Summary.                               errors due to the auditor’s failure to list the Type A dollar
                                                    threshold on the Auditors Summary, and 1 error due to
                                                    the auditor’s typographical error. We also found 2
                                                    typographical errors attributable to the Clearinghouse.


 Item 3      Low-Risk Auditee                       Item 3
             Compared with the Auditor’s            We found 9 errors in Item 3 that were attributable to the
             Summary.                               auditors. Seven errors were due to the auditor not listing
                                                    whether the auditee qualified as a low risk auditee on the
                                                    Auditor’s Summary, and 2 errors were due to a mismatch
                                                    between the information on the Data Collection Form and
                                                    the information on the Auditor’s Summary.




                                                    10
U.S. Department of Commerce                                                        Final Report ATL-12556-0-0001
Office of Inspector General                                                                             July 2000

Table 4 (cont.)
                      DATA COLLECTION FORM Part III- Federal Programs (cont.)
 Agreed-Upon Procedures Performed                        Results of Procedures

 Item 4       Audit Findings                             Item 4
              Compared with the                          We found 5 errors in Item 4 that were attributable to the
              (a) Auditor’s Report Three, and            auditor. Item 4(a) had 1 error due to the auditor’s
              (b) Auditor’s Summary.                     inclusion of findings on the Data Collection Form that
                                                         were not indicated in Auditor’s Report Three. Item 4(b)
                                                         had 4 errors due to a mismatch between the audit findings
                                                         on the Data Collection Form and the audit findings
                                                         included on the Auditor’s Summary.

 Item 5       Federal Agencies Required to               Item 5
              Receive the Reporting Package.             We found 101 errors in Item 5. We found 77 errors
              For each finding identified in the         attributable to the Clearinghouse; however, 76 of these
              Schedule of Findings and Questioned        errors were due to 2 programming problems in converting
              Costs, we determined which Federal         information from the Clearinghouse Database to its
              awarding agency provided direct funds      website. For 75 of these reports, no Federal agency was
              and should receive a copy of the report.   required to receive a reporting package; however, the
                                                         website indicated that a Federal agency other than those
                                                         listed in Item 5 would be required to receive a report. The
                                                         second programming problem resulted in 1 error affecting
                                                         1 report. The Appalachian Regional Commission (ARC)
                                                         was listed as the Federal agency required to receive a
                                                         reporting package in the Database; however, the website
                                                         indicated the Federal agency as “Other.” In addition to the
                                                         programming errors, the Clearinghouse made 1
                                                         typographical error.

                                                         We found 24 errors in Item 5 that were attributable to the
                                                         auditors. For 21 of these errors, the auditors indicated
                                                         Federal agencies were required to receive the reporting
                                                         package when we could find no evidence that they were.
                                                         Another 3 errors involved the mis-identification of all
                                                         Federal agencies required to receive reports.




                                                         11
U.S. Department of Commerce                                                  Final Report ATL-12556-0-0001
Office of Inspector General                                                                       July 2000
Table 5
                      DATA COLLECTION FORM Part III - Federal Programs
 Agreed Upon Procedures Performed                   Results of Procedures

                                                    We found a total of 64 errors in the 7,977 attributes
                                                    tested for Table 5. We calculated the attributes tested
                                                    by multiplying the Items 6(a) - 6(c) by the sample size
                                                    of 2,559 (3 * 2,559 = 7,677) plus Totals 6(c)(a) and
                                                    (b) by the sample size of 150 (2 * 150 =300).

 Item 6(a)    CFDA Number                           Item 6a
              Compared with the SEFA.               We found 22 errors in 11 reports. Of these 22 errors,
                                                    10 resulted from the auditor’s completion of the Data
                                                    Collection Form that did not match the SEFA. The
                                                    other 12 errors were attributed to the Clearinghouse.
                                                    The errors included (a) 2 typographical errors, (b) 2
                                                    invalid 00's typed for the first two digits of the CFDA
                                                    number, (c) 4 CFDA numbers that did not match the
                                                    Data Collection Form, and (d) 4 CFDA numbers that
                                                    dropped the fifth zero in the CFDA number. These
                                                    last 4 errors were due to a programming problem.

 Item 6(b)    Name of Federal Program               Item 6b
              Compared with the SEFA.               We found 12 errors in 4 reports. Ten errors were
                                                    attributable to the auditors. For 10 CFDA programs,
                                                    we could not match the program name in the Data
                                                    Collection Form to the SEFA. We also noted 2 errors
                                                    affecting 2 CFDA programs that were attributable to
                                                    the Clearinghouse. Both of these were typographical
                                                    errors.

                                                    Item 6c
 Item 6(c)    Amount of Federal Expenditures        We found 18 errors in 9 reports. Of these 18 program
              Compared with the SEFA. We            errors, 8 were attributable to the auditors, and 10 were
              determined whether the amounts for    the result of errors made at the Clearinghouse. The
              Federal awards expended had been      errors were due to the amount of Federal expenditures
              included in Item 6c of the Data       in the Clearinghouse Database not matching the Data
              Collection Form.                      Collection Form or the SEFA.

                                                    Total 6(c)
 Total 6(c)   Total of Federal Awards Expended
                                                    We found 12 errors in total 6(c). Total 6(c)(a) had
              Compared with the
                                                    10 errors due to a mismatch between the Database
              (a) SEFA, and
                                                    and the SEFA. Eight of these errors were made by
              (b) Data Collection Form.
                                                    the auditor and 2 errors were attributable to the
                                                    Clearinghouse. Total 6(c)(b) had 2 errors due to
                                                    typographical errors made by the Clearinghouse.




                                                   12
U.S. Department of Commerce                                                         Final Report ATL-12556-0-0001
Office of Inspector General                                                                              July 2000
Table 6
                          DATA COLLECTION FORM Part III - Federal Program
 Agreed -Upon Procedures Performed                          Results of Procedures

                                                            We found a total of 105 errors in the 10,236 attributes
                                                            tested for Table 6. We calculated the attributes tested
                                                            by multiplying the items listed in this table by the
                                                            sample of 2,559 (4 * 2,559=10,236).

 Item 7(a)   Major Program                                  Item 7(a)
             Compared with the Auditor’s Summary.           We found 47 errors in 23 reports. A typographical
                                                            error resulted in 1 Clearinghouse error. The auditors
                                                            were responsible for the other 46 errors. Of the 46
                                                            errors, 41 errors, affecting 19 reports, were due to
                                                            differences in the major programs identified on the
                                                            Auditor’s Summary and the major programs identified
                                                            on the Data Collection Form. Five errors were due to
                                                            typographical mistakes by the auditor and the auditor’s
                                                            failure to identify the major programs on the Auditor’s
                                                            Summary.

 Item 7(b)   Type of Compliance Requirement                 Item 7(b)
             For each audit finding identified, we          We found 52 errors in 10 reports. All were counted as
             determined the type of compliance              auditor errors. The errors were due to the auditor
             requirement (listed in footnote 2 of the       marking an incorrect and/or incomplete type of
             Data Collection Form), which applies to        compliance requirement code on the Data Collection
             the audit finding after reading the finding    Form.
             in the Schedule of Findings and
             Questioned Costs.

             Questioned Costs                               Item 7(c)
 Item 7(c)                                                  We found 3 errors in 2 reports. The auditors noted
             Compared with the Schedule of Findings
             and Questioned Costs.                          questioned costs in the Single Audit report’s Schedule
                                                            of Findings and Questioned Costs but these findings
                                                            were not included on the Data Collection Form.

                                                            Item 7(d)
 Item 7(d)   Internal Control Findings
                                                            We found 3 errors in 3 reports. Two of these errors
             For each audit finding disclosing an
                                                            were due to the Clearinghouse incorrectly marking the
             internal control finding applicable to a
                                                            internal control findings code on the Data Collection
             Federal program, we tested if the finding
                                                            Form. One error was due to the auditor not correctly
             was correctly classified as a reportable
                                                            coding the internal control finding on the Data
             condition or material weakness by
                                                            Collection Form.
             comparing the classification with
             Auditor’s Report Three.




                                                           13
U.S. Department of Commerce                                                          Final Report ATL-12556-0-0001
Office of Inspector General                                                                               July 2000


III.      COMPLETENESS OF THE AUDIT FINDINGS IN THE DATABASE

Overview of Results

We verified that all audit findings reflected in the 150 sampled Single Audit reports reviewed were
included in the Clearinghouse Database. We found four reports that had findings omitted from
the Database. We classified these reports as having critical errors. Projections were made for the
critical errors, and a table detailing the error projections is included as Appendix II.

Procedures and Results

Table 7
 Agreed-Upon Procedures Performed                            Results of Procedures

 Using the reporting packages obtained for the stage I       We found 4 reports out of 150 which had findings
 sample, we tested all findings reported in the Schedule     omitted from the Database. These reports were
 of Findings and Questioned Costs, Section III (Federal      considered to have critical errors. These errors were
 award findings and questioned costs), to determine if       due to the auditor omitting the findings from the Data
 they were also reported as findings in the Clearinghouse    Collection Form. We found another 4 reports where
 Database. The audit finding reference number was used       one or more findings were not properly reported in the
 to make this determination.                                 Database due to the use of incorrect or incomplete
                                                             finding reference numbers. We did not consider these
                                                             errors critical because the findings were included in the
                                                             Database even though the finding reference number was
                                                             incorrect or incomplete.




                                                            14
U.S. Department of Commerce                                         Final Report ATL-12556-0-0001
Office of Inspector General                                                              July 2000


IV.    CENSUS RESPONSE AND OIG COMMENTS

Census Response

The Census Bureau fully agreed with the results of the Agreed-Upon Procedures engagement.
The Bureau explained that the Clearinghouse developed the audit report database with the close
guidance of OMB and the federal agency sponsors. Given the complexities of the electronic
system and related operating procedures involved in this effort, the Bureau was pleased to hear
that the accuracy of its work was confirmed by our review. The Bureau further stated that
corrections are in progress for the keying errors and programming problems noted in the draft
report.

OIG Comments

We reviewed the Bureau’s response to the draft report and appreciate the comments provided.
The Bureau’s entire response is included as Appendix V.




                                               15
U.S. Department of Commerce                                            Final Report ATL-12556-0-0001
Office of Inspector General                                                                 July 2000

                                                                                         Appendix I
                                                                                         Page 1 of 4

                              Single Audit Clearinghouse Database
                              FY 1998 Audit Reports AUP Project
                                     Sampling Methodology

This appendix describes the sampling methodology used to determine the Single Audit reports
and Catalog of Federal Domestic Assistance (CFDA) program entries in the Federal Audit
Clearinghouse Database that were tested. Stage I represented individual Single Audit reports
entered in the Database as of October 26, 1999, with a financial statement period ended during
calendar year 1998. Stage II represented individual CFDA program entries associated with such
Single Audit reports as indicated in Part III of the Data Collection Form for Reporting on Audits
of States, Local Governments and Non-Profit Organizations.

We utilized a two-stage attribute sampling plan prepared by the Department of Labor, Office of
Inspector General, to achieve a sample that was representative of the individual CFDA program
entries in the Database. As of October 26, 1999, the Database included 18,992 audit reports
claiming $346 billion in Federal awards expended (see Footnote 1 on page 3 of this report) during
the auditee’s fiscal year 1998. Of the 18,992 reports, we selected 150 reports for testing, using a
stratified random sample. These 150 Single Audit reports included 12,890 individual CFDA
program entries. Of these 12,890 entries, we selected 2,559 entries.

Objectives of the Tests

The objectives of our tests were to determine whether:

1.     The reporting package was complete.

2.     The information included in the Database agreed with the Single Audit report or the Data
       Collection Form for data not included in the Single Audit report.

3.     All audit findings reflected in the Single Audit reports were correctly included in the
       Database.

Definition of the Population and Sampling Unit

The population was defined in two stages. The stage I population was defined as all Single Audit
reports entered in the Database as of October 26, 1999, with a financial statement period ended
during calendar year 1998. This totaled 18,992 reports. The stage II population was defined as all
individual CFDA program Database entries as represented in part III of the Data Collection Form
for the audit reports identified in the population. This totaled 201,668 entries.
U.S. Department of Commerce                                            Final Report ATL-12556-0-0001
Office of Inspector General                                                                 July 2000

                                                                                         Appendix I
                                                                                         Page 2 of 4

Stage II sampling was designed to test CFDA program entries for each Single Audit report
selected in the Stage I sample.

Stage I was used to test the following Database elements from the Database to the Single Audit
report or Data Collection Form as indicated in Tables 2 through 6. Database elements are defined
by reference to the applicable item on the Data Collection Form. The Data Collection Form is
divided into three parts as follows:

l      Part I, General Information
       1.      Fiscal Year Ending Date
       2.      Type of Circular A-133 Audit
       3.      Audit Period Covered
       4.      Date Received (not tested - Census use only)
       5.      Auditee Employer Identification Number
       6.      Auditee Information - Name, Address, Signature
       7.      Auditor Information - Name, Address, Signature
       8.      Federal Cognizant or Oversight Agency for Audit
       9.      Name of Federal Cognizant or Oversight Agency for Audit

l      Part II, Financial Statements
       1.       Type of Audit Report
       2.       Going Concern Explanatory Paragraph
       3.       Reportable Conditions
       4.       Material Weaknesses
       5.       Material Non-Compliance

l      Part III, Federal Programs
       1.       Type of Report on Major Program Compliance
       2.       Dollar Threshold to Distinguish Type A and Type B Programs
       3.       Low-Risk Auditee
       4.       Audit Findings Reported
       5.       Federal Agencies Required to Receive Reporting Package

Stage I was also used to test that all Single Audit findings and questioned costs reported in the
selected Single Audit reports were correctly included in the Database.
U.S. Department of Commerce                                                  Final Report ATL-12556-0-0001
Office of Inspector General                                                                       July 2000

                                                                                               Appendix I
                                                                                               Page 3 of 4

Stage II was used to test the following Database elements from the Database to the Single Audit
report. Database elements are defined by reference to the applicable item on the Data Collection
Form as follows:

l      Part III, Federal Programs

       6.       Federal Awards Expended
       7.       Audit Findings and Questioned Costs

Definition of an Error

An error, or deviation, is any instance where the information for the data element tested per the
Database did not agree with the Single Audit report or Data Collection Form as applicable. For
dollar amount data elements, a difference of $100 or less was not considered an error.

Sampling Plan

For stage I, the sampling plan utilized a stratified random attribute sample designed to assess a
tolerable error rate of 7 percent or less with a 95 percent confidence level for a one-sided test and
a standard error of 3 percent or less. Our sample size was also based on an estimated 4 percent
deviation rate. A sample size of 150 was used. The strata and sample sizes per stratum were as
follows:

                                                         Direct Federal
                                          Number of    Awards and Pass-
                                           Single       Through Funds                     Federal Awards
                                            Audit        Expended (see        Sample      Expended in the
 Stratum               Range               Reports     footnote 1, page 3)     Size          Sample
    1       $    300,000 $ 24,999,999        18,462     $ 43,755,959,245         100     $    365,865,804
    2         25,000,000    499,999,999         479       40,576,648,235           30       2,810,560,904
    3        500,000,000        ~                 51     261,230,895,285           20     126,628,161,225
 Totals                                      18,992     $345,563,502,765         150     $129,804,587,933

Stage II sampling was designed to test up to 50 CFDA program entries for each Single Audit
report selected in stage I. For strata 2 and 3, if a Single Audit report included more than
50 CFDA program entries, a sample of 50 entries was taken. For stratum 1 and for all Single
Audit reports in strata 2 and 3 that had 50 or less CFDA program entries, all entries were selected.
The stage II sampling plan was designed to achieve a tolerable error rate of 7 percent or less with
a 95 percent confidence level for a one-sided test and a standard error of 3 percent or less. Our
sample size was also based on an estimated 4 percent deviation rate.
U.S. Department of Commerce                                            Final Report ATL-12556-0-0001
Office of Inspector General                                                                 July 2000

                                                                                         Appendix I
                                                                                         Page 4 of 4

For stratum 2, there were 4 Single Audit reports selected at stage I that exceeded the 50 CFDA
program entries and required a random selection of 50 entries for each of the 4 reports. For
stratum 3, there were 17 Single Audit reports that required a stage II random sample of 50 entries
each. After the random selections and including the stage I sample items for which all CFDA
program entries were tested, we had a stage II sample size of 2,559 CFDA program entries.


                    CFDA Program Entries in      CFDA Program Entries in     CFDA Program Entries
     Stratum             Population                 Stage I Sample             in Stage II Sample

          1                          147,289                          910                       910
          2                           29,896                        1,030                       790
          3                           24,483                       10,950                       859
 Totals                              201,668                       12,890                     2,559

Sample Selection Process

We used Interactive Data Extraction and Analysis (IDEA) for Windows, Version 3, to perform
the stratified random sample selection for stages I and II. Samples were selected without
replacement.

Sample Evaluation

We performed two sets of attribute projections: one for all stage I samples and one for all stage II
samples. Stage I and II samples were evaluated using formulas for estimation of a population
proportion (stage I) and estimation of a population proportion for two-stage sampling (stage II),
for the individual stratum and to calculate the overall population proportion for the three strata,
from Elementary Survey Sampling, Fifth Edition, by Richard L. Scheaffer, published by the
Duxbury Press, 1996. The overall population proportion was verified by using formulas from the
Handbook of Sampling for Auditing and Accounting, Second Edition, by Herbert Arkin,
published by the McGraw-Hill Book Company, 1974.
U.S. Department of Commerce                                                         Final Report ATL-12556-0-0001
Office of Inspector General                                                                              July 2000

                                                                                                             Appendix II
                                                                                                              Page 1 of 3

                                                Sampling Projections

The following table includes the projections of errors resulting from the sampling plan developed by
the Department of Labor, Office of Inspector General, as described in Appendix I. The sampling plan
utilized a two-stage stratified random attribute sample designed to achieve a tolerable error rate of
7 percent or less, with a 95 percent confidence level for a one-sided test, and a standard error rate of
3 percent or less. We defined an error as any instance where the information for the data element
tested per the Database did not agree with the Single Audit report or Data Collection Form as
applicable. For dollar amount data elements, a difference of $100 or less was not considered an error.

The sampling projections were based on the errors found and reported in Tables 1 through 7 of the
Agreed-Upon Procedures and Results Section of this report. We did not perform projections for
those attributes where we found zero errors in the sample; however, even with zero errors in the
sample, due to the sampling error (i.e., the risk that our sample is not truly representative of the
population), we cannot say that there would be zero errors in the population.

                                           Agreed-Upon Procedures and Results
                                      Section I - Completeness of Reporting Package
                                                                                           Projected           Projected
                                                                             Point         Errors at     Upper Errors at
                                                                         Estimate              Point     Range    Upper
                                                Population Sample Errors       %2          Estimate 3      %4    Range5
Table 1 - Reporting Package                          18,992      150       2     1.94%           369      4.18%          794




         2
          The Point Estimate % is derived from the three individual stratum error percentages and represents the
most plausible estimate of the percentage of errors in the entire population. We have rounded the Point Estimate
percentage to two-digits for this table.
         3
           The Projected Errors at the Point Estimate is the point estimate percentage multiplied by the entire
population and represents the estimated number of errors in the population. Although the point estimate percentage
was rounded to two-digits for this table, the actual point estimate percentage was used in the calculation of the
projected errors.
         4
           The Upper Range % is defined as a calculated value for which we are 95% confident (one-sided) that the
true deviation percentage will not exceed the calculated percentage. The upper range percentage is simply the point
estimate percentage plus the sampling risk for not auditing 100% of the population. We have rounded the Upper
Range percentage to two-digits for this table.
         5
           The Projected Errors at the Upper Range is the upper range percentage multiplied by the population which
equals the estimated errors in the population. We are 95% confident that the true errors will not exceed the Projected
Errors at the Upper Range. Although the upper range percentage was rounded to two-digits for this table, the actual
upper range percentage was used in the calculation of the projected errors.
U.S. Department of Commerce                                                          Final Report ATL-12556-0-0001
Office of Inspector General                                                                               July 2000
                                                                                                            Appendix II
                                                                                                             Page 2 of 3
                                              Agreed-Upon Procedures & Results
                                      Section II - Accuracy of Data Elements in Database
                                                                                    Point   Projected    Upper Projected
                                                                                Estimate    Errors at    Range Errors at
                                                                                       %         Point      %     Upper
                                                  Population Sample Errors                   Estimate             Range
Table 2 - General Information
Item 3 - Audit period covered                         18,992      150       3     2.03%           385     4.27%         811
Item 6(a) - Auditee Name                              18,992      150       1     0.97%           185     2.56%         486
Item 6(b) - Auditee Address                           18,992      150       3     2.03%           385     4.27%         811
Item 7(a) - Auditor Name                              18,992      150       3     1.07%           203     2.67%         506
Item 7(b) - Auditor Address                           18,992      150       2     0.99%           187     2.58%         489
Item 8 - Cognizant or Oversight Agency                18,992      150      18    13.80%         2,622    19.35%       3,675
Item 9 - Name of Federal Agency for Audit             18,992      150       1     0.97%           185     2.56%         487
Table 3 - Financial Statements
Item 1 - Type of Audit Report
1(a) - Compared with Auditor’s Report One             18,992      150       2     1.94%           369     4.18%         794
1(b) - Compared with Auditor’s Summary                18,992      150      11    10.69%         2,031    15.69%       2,980
Item 3 - Reportable Conditions
3(a) - Compared with Auditor’s Report Two             18,992      150       4     2.93%           556    5.66%        1,074
3(b) - Compared with Auditor’s Summary                18,992      150       8     5.93%         1,126    9.73%        1,847
Item 4 - Material Weakness
4(b) - Compared with Auditor’s Summary                18,992      150       2     1.94%           369    4.18%         794
Item 5 - Material Non-Compliance
5(a) - Compared with Auditor’s Report Two             18,992      150       4     2.93%           556    5.66%        1,074
5(b) - Compared with Auditor’s Summary                18,992      150       8     5.86%         1,113    9.65%        1,834
Table 4 - Federal Programs Items 1-5
Item 1 - Report on Major Program Compliance
1(a) - Compared with Auditor’s Report Three           18,992      150       1     0.01%             2     0.03%           6
1(b) - Compared with Auditor’s Summary                18,992      150       6     3.92%           744     7.05%       1,338
Item 2 - Type A Dollar Threshold                      18,992      150       9     6.90%         1,311    10.98%       2,086
Item 3 - Low-risk Auditee                             18,992      150       9     8.75%         1,662    13.32%       2,530
Item 4 - Audit Findings Reported
4 (a) -Compared with Auditor’s Report Three           18,992      150       1     0.97%           185    2.56%          487
4 (b) - Compared with Auditor’s Summary               18,992      150       4     3.89%           738    7.02%        1,333
Item 5 - Federal Agencies Receiving a Reporting
          Package
5 (a) - Non-Programming Errors                        18,992      150      25    19.65%         3,732    26.04%    4,946
5 (b) - Programming Errors                            18,992      150      76    56.87%        10,800    64.78%   12,304
Table 5 - Federal Programs Item 6
Item 6 - Federal Awards Expended
6(a) - CFDA Number                                   201,668    2,559      22     0.77%         1,543    1.12%        2,267
6(b) - Name of Federal Program                       201,668    2,559      12     0.27%           553    0.43%          867
6(c) - Federal Expenditures                          201,668    2,559      18     0.58%         1,162    0.88%        1,780
Total 6(c) - Total Federal Expenditures
6(c)(a) - Compared with SEFA                          18,992      150      10     3.22%           612    5.96%        1,131
6(c)(b) - Compared with Data Collection Form          18,992      150       2     0.17%            32    0.35%           67
Table 6 - Federal Programs Item 7
Item 7 - Audit Findings and Questioned Costs
7(a) - Major Program                                 201,668    2,559      47     2.18%         4,400    2.80%        5,655
7(b) - Type of Compliance Requirements               201,668    2,559      52     1.15%         2,327    1.52%        3,063
7(c) - Amount of Questioned Costs                    201,668    2,559       3     0.24%           486    0.47%          944
7(d) - Internal Control Findings                     201,668    2,559       3     0.13%           254    0.26%          532
U.S. Department of Commerce                                                      Final Report ATL-12556-0-0001
Office of Inspector General                                                                           July 2000
                                                                                                       Appendix II
                                                                                                        Page 3 of 3

                                         Agreed-Upon Procedures and Results
                           Section III - Completeness of the Audit Findings in the Database
                                                                                       Projected          Projected
                                                                          Point        Errors at    Upper Errors at
                                                                      Estimate              Point   Range    Upper
                                             Population Sample Errors        %          Estimate       %     Range

Table 7 - Audit Findings                          18,992      150       4     0.12%           24    0.26%         50
U.S. Department of Commerce                           Final Report ATL-12556-0-0001
Office of Inspector General                                                July 2000

                                                                      Appendix III
                                                                       Page 1 of 1

                      DISTRIBUTION LIST FOR SPECIFIED USERS

Department of Agriculture
Department of Commerce
Department of Defense
Department of Education
Department of Energy
Department of Health and Human Services
Department of Housing and Urban Development
Department of the Interior
Department of Justice
Department of Labor
Department of Transportation
Corporation for National and Community Service
Environmental Protection Agency
Federal Emergency Management Agency
National Aeronautics and Space Administration
National Science Foundation
U.S. Department of Commerce                                          Final Report ATL-12556-0-0001
Office of Inspector General                                                               July 2000

                                                                                     Appendix IV
                                                                                      Page 1 of 1

                                         GLOSSARY

 Auditor’s Report One         The Independent Auditor’s Opinion on Financial Statements and
                              Supplementary Schedule of Expenditures of Federal Awards.


 Auditor’s Report Two         The Report on Compliance and on Internal Controls over
                              Financial Reporting Based on an Audit of Financial Statements in
                              Accordance with Government Auditing Standards.


 Auditor’s Report Three       The Report on Compliance with Requirements Applicable to Each
                              Major Program and on Internal Controls over Compliance in
                              Accordance with OMB Circular A-133.


 Auditor’s Summary            The Summary of Auditor’s Results included in the Schedule of
                              Findings and Questioned Costs.


 CAP                          A Corrective Action Plan for current year audit findings.


 CFDA                         The Catalog of Federal Domestic Assistance.


 Data Collection Form         The Data Collection Form for Reporting on Audits of States,
                              Local Governments and Non-Profit Organizations.


 Prior Year Findings          A Summary Schedule of Prior Audit Findings may be included
                              although it is not always required.


 SEFA                         The Schedule of Expenditures of Federal Awards.
